   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Washington, D.C. 20201




January 11, 2011

TO:           Yolanda J. Butler, Ph.D.
              Acting Director
              Office of Community Services
              Administration for Children and Families


FROM:         /Lori S. Pilcher/
              Assistant Inspector General for Grants, Internal Activities,
                and Information Technology Audits


SUBJECT:      Results of Limited Scope Review at Nicholas Community Action Partnership,
              Inc. (A-03-10-00251)


The attached final report provides the results of our limited scope review at Nicholas Community
Action Partnership, Inc. In accordance with the American Recovery and Reinvestment Act of
2009, the Office of Inspector General (OIG) will provide oversight of covered funds to prevent
fraud, waste and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-03-10-00251
in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW
 AT NICHOLAS COMMUNITY ACTION
        PARTNERSHIP, INC.




                       Daniel R. Levinson
                        Inspector General

                         January 2011
                         A-03-10-00251
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. 105-285,
to provide funds to alleviate the causes and conditions of poverty in communities. Within the
U.S. Department of Health & Human Services, the Administration for Children and Families
(ACF), Office of Community Services administers the CSBG program. The CSBG program
funds a State-administered network of more than 1,000 local Community Action Agencies
(CAA) that create, coordinate, and deliver programs and services to low-income Americans. The
CAAs provide services and activities addressing employment, education, housing, nutrition,
emergency services, health, and better use of available income.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

West Virginia’s Governor’s Office of Economic Opportunity (GOEO) acts as the lead agency for
carrying out State activities for the CSBG program. GOEO is responsible for approving the
States CAA Recovery Act grant applications, and monitoring the CAAs for compliance with
program regulations. GOEO was awarded an additional $11,193,235 in Recovery Act funds for
the State of West Virginia’s CSBG program.

Nicholas Community Action Partnership, Inc. (Nicholas), a private, nonprofit organization, has
provided services to individuals and families in Nicholas County, West Virginia since 1964.
During fiscal year 2009, GOEO awarded Nicholas $288,210 in Recovery Act CSBG funds, and
$223,258 in regular CSBG funds for a total of $511,468 in CSBG grant funds. Nicholas also
received Federal Head Start funds and funds from three other Federal Departments.

OBJECTIVE

Our objective was to assess Nicholas’ financial viability, capacity to manage and account for
Federal funds and program performance requirements, and capability to operate its CSBG
programs in accordance with Federal regulations.

SUMMARY OF FINDINGS

Based on our assessment, Nicholas is financially viable, has the ability to manage and account
for Federal funds, and is capable of operating its CSBG programs in accordance with Federal
regulations. However, we noted weaknesses related to the composition of the Board of
Directors, segregation of duties, and lack of written policies and procedures for use of
consultants.


                                                i
RECOMMENDATION

In determining whether Nicholas is appropriately managing and accounting for Recovery Act
and regular CSBG grant funding, we recommend that ACF consider the information presented in
this report in assessing Nicholas’ ability to operate its CSBG programs in accordance with
Federal regulations.

NICHOLAS COMMUNITY ACTION PARTNERSHIP, INC., COMMENTS

In written comments on our draft report, Nicholas concurred with our findings and described
actions that it had taken to address them. Nicholas’ comments are included in their entirety as
the Appendix.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              West Virginia’s Governor’s Office of Economic Opportunity......................1
              Nicholas Community Action Partnership, Inc.. .............................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          COMPOSITION OF THE BOARD OF DIRECTORS .............................................3

          SEGREGATION OF DUTIES ..................................................................................3

          POLICIES AND PROCEDURES .............................................................................4

          RECOMMENDATION .............................................................................................4

          NICHOLAS COMMUNITY ACTION PARTNERSHIP, INC., COMMENTS.......4

APPENDIX

         NICHOLAS COMMUNITY ACTION PARTNERSHIP, INC., COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. 105-285
(the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services (HHS), the
Administration for Children and Families (ACF), Office of Community Services administers the
CSBG program. The CSBG program funds a State-administered network of more than 1,000
local Community Action Agencies (CAA) that create, coordinate, and deliver programs and
services to low-income Americans. The CAAs provide services and activities addressing
employment, education, housing, nutrition, emergency services, health, and better use of
available income.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

West Virginia’s Governor’s Office of Economic Opportunity

West Virginia’s Governor’s Office of Economic Opportunity (GOEO) acts as the lead agency for
purposes of carrying out State activities for the CSBG program. GOEO is responsible for
approving the State’s CAA Recovery Act grant applications, and monitoring the CAAs for
compliance with program regulations. GOEO was awarded an additional $11,193,235 in
Recovery Act funds for the State of West Virginia’s CSBG program.

Nicholas Community Action Partnership, Inc.

Nicholas Community Action Partnership, Inc. (Nicholas), a private, nonprofit organization, has
provided services to individuals and families in Nicholas County, West Virginia since 1964.
During fiscal year 2009, GOEO awarded Nicholas $288,210 in Recovery Act CSBG funds, and
$223,258 in regular CSBG funds for a total of $511,468 in CSBG grant funds. Nicholas also
received Federal Head Start funds and funds from three other Federal Departments.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must maintain inventory control systems
and take periodic physical inventory of grant-related equipment, implement written accounting
policies and procedures, and maintain financial systems that provide for accurate and complete
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. Nonprofit organizations that receive CSBG funds must comply
with Federal cost principles found at 2 CFR part 230 (formerly Office of Management and


                                               1
Budget Circular A-122, Cost Principles for Non-profit Organizations). The HHS Grants Policy
Statement sets forth the general terms and conditions of HHS discretionary grants and
cooperative agreement awards. The CSBG Act establishes the CSBG program and sets the
requirements and guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Nicholas’ financial viability, capacity to manage and account for
Federal funds and program performance requirements, and capability to operate its CSBG
programs in accordance with Federal regulations.

Scope

We conducted a limited review of Nicholas’ financial viability, financial management system,
program performance requirements, and related policies and procedures. Therefore, we did not
perform an overall assessment of Nicholas’ internal control structure. Rather, we reviewed only
the internal controls that pertained directly to our objective.

We performed our fieldwork at Nicholas’ administrative office in Summersville, West Virginia,
during July 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that Nicholas is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed relevant State guidance;

   •    reviewed Nicholas’ application and implementation of the grant awards for the Recovery
        Act funding;

   •    reviewed the findings related to the most recent State review;

   •    reviewed Nicholas’ policies and procedures related to its CSBG programs;

   •    reviewed Nicholas’ by-laws, minutes from the Board of Directors meetings, composition
        of Board, and organizational chart;

   •    performed audit steps to assess the adequacy of Nicholas’ current financial systems; and




                                                 2
   •   reviewed Nicholas’ audited financial statements and supporting documentation for the
       period of September 1, 2006, through October 31, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Based on our assessment, Nicholas is financially viable, has the capacity to manage and account
for Federal funds, and is capable of operating its CSBG programs in accordance with Federal
regulations. However, we noted weaknesses related to the composition of the Board of
Directors, segregation of duties, and lack of written policies and procedures for use of
consultants.

COMPOSITION OF THE BOARD OF DIRECTORS

Section 676B of the CSBG Act requires that all CAAs administer their CSBG programs through
a tripartite board composed of one-third elected public officials or their representatives; one-third
representatives of low-income individuals and families who reside in the neighborhoods they
represent; and one-third members of business, industry, labor, religious, law enforcement,
education, or other major groups and interests in the community served. Section 676B requires
the board to participate fully in the development, planning, implementation, and evaluation of the
programs to serve low-income communities.

To comply with the tripartite board requirements, Nicholas’ by-laws require that a vacancy of
any elected position shall be filled within 90 days. However, one of Nicholas’ 12 Board of
Directors’ positions was vacant for more than 90 days. The board member, who represented
families and individuals below the national median income level, resigned on January 19, 2010.
On May 10, 2010, a new representative was elected by low-income individuals in Nicholas
County. We contacted Nicholas officials and they confirmed that the Board voted to approve its
new member to fill this vacancy on August 17, 2010, 210 days after the position became vacant.

SEGREGATION OF DUTIES

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide
effective control over and accountability of all funds, property, and other assets so that recipients
can adequately safeguard all such assets and assure they are used solely for authorized purposes.

Nicholas did not adequately segregate duties for payroll. At the time of our audit, there was no
secondary review of payroll by Nicholas officials. Nicholas' Finance Department consisted of
two employees, the Finance Director and the Assistant Finance Director, each of whom
independently prepared the payroll for about half of the employees. Each verified his or her own



                                                  3
work. They did not verify each other’s work, nor did any Nicholas officials outside of the
Finance Department review the payroll.

Also, program directors and managers performed their own physical inventories and maintained
their own inventory records.

POLICIES AND PROCEDURES

Pursuant to 45 CFR § 74.44(a), grantees of Federal awards must implement written procurement
procedures for solicitation of goods and services. Exhibit 4 of the HHS Grants Policy Statement,
page II-33, requires grantees to have written policies for the use of consultants.

At the time of our audit, Nicholas did not have written policies and procedures regarding the use
of consultants, specifically, procedures for selecting the most qualified individual available, for
determining the nature and extent of the services to be provided, and for ensuring that the fees
are reasonable in accordance with 2 CFR part 230, App. B § 37. During fiscal year 2009,
Nicholas reported annual costs of $14,980 for consultants.

RECOMMENDATION

In determining whether Nicholas is appropriately managing and accounting for Recovery Act
and regular CSBG grant funding, we recommend that ACF consider the information presented in
this report in assessing Nicholas’ ability to operate its CSBG programs in accordance with
Federal regulations.

NICHOLAS COMMUNITY ACTION PARTNERSHIP, INC., COMMENTS

In written comments on our draft report, Nicholas concurred with our findings and described
actions that it had taken to address them. Nicholas’ comments are included in their entirety as
the Appendix.




                                                 4
APPENDIX
                                                                               Page 1 of 2


    APPENDIX: NICHOLAS COMMUNITY ACTION PARTNERSHIP, INC.,
                         COMMENTS

              Nicholas Community Action Partnership, Inc.
                        Dave Jarroll, President
                          1205 Broad Street
                       Summersville, WV 26651
                          www.ncapwv.info

                    Corrective Action Plan
                               OIG Monitoring Visit
                             Report #: A—03-10-00251

Finding/Recommendation: Section 676B of the CSBG Act requires that all CAAs
administer their CSBG programs through a tripartite board composed of one-third elected
officials or their representatives; one-third representatives of low-income individuals and
families who reside in the neighborhoods they represent; and one-third members of
business, industry, labor, religious, law enforcement, education, or other major groups of
interests in the community served. Section 676B requires the board to participate fully in
the development, planning, implementation, and evaluation of the programs to serve low-
income communities.
To comply with the tripartite board requirements, Nicholas’ by-laws require that a
vacancy of any elected position shall be filled within 90 days. However, one of
Nicholas’ 12 Board of Directors’ position was vacant for more than 90 days. The board
member, who represented families and individuals below the national median income
level, resigned on January 19, 2010. On May 10, 2010, a new representative was elected
by low-income individuals in Nicholas County. We contacted Nicholas officials and they
confirmed that the Board voted to approve its new member to fill this vacancy on August
17, 2010, 210 days after the position became vacant.

Corrective Action Plan: The agency utilizes the local Head Start and Senior Center
boards to nominate members below the national median income to serve on the Board of
Directors. The agency will ensure the local boards will be informed quickly of any future
vacancies so a nominating and elections process can occur in a more efficient manner.

Finding/Recommendation: Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial
management system must provide effective control over and accountability of all funds,
property, and other assets so that recipients can adequately safeguard all such assets and
assure they are used for authorized purposes.
Nicholas did not adequately segregate duties for payroll. At the time of our audit, there
was no secondary review of payroll by Nicholas officials. Nicholas’ Finance Department
consist of two employees, the Finance Director and the Assistant Finance Director, each
of whom independently prepare the payroll for about half of the employees. Each
                                                                                Page 2 of 2


verified his or her own work. They did not verify each other’s work, nor did any
Nicholas officials outside the Finance Department review the payroll.

Also, program directors and managers performed their own physical inventories and
maintained their own inventory records.

Corrective Action Plan: The Finance Director and Assistant Finance Director will start
verifying each others work. After the timesheets have been entered into the Accounting
Software by the Finance Director or Assistant Finance Director the batch will be given to
the other for control totals to be added and verified. Also the NCAP President reviews all
timesheets when signing the payroll checks.

The procedure in the Finance Manual will be changed to state that the Fiscal Department
along with the Program Managers from a different department of the one being
inventoried will complete the actual physical inventory of the programs. The form will
have signature and date of each employee who conducted the actual inventory and who
was involved in the process. Also inventory records should be maintained in the Fiscal
Department and a copy given to the managers.

Finding/Recommendation: Pursuant to 45 CFR 74.44(a) grantees of Federal awards
must implement written procurement procedures for solicitation of goods and services.
Exhibit 4 of the HHS Grants Policy Statement, page II-33, requires grantees to have
written policies for the use of consultants.
At the time of our audit, Nicholas did not have written policies and procedures regarding
the use of consultants, specifically, procedures for selecting the most qualified
individuals available, for determining the nature and extent of the services to be provided,
and for ensuring that the fees are reasonable in accordance with 2 CFR part 230, App B §
37. During fiscal year 2009, Nicholas reported annual costs of $14,980 for consultants.

Corrective Action Plan: Nicholas Community Action Partnership, Inc. currently has a
Purchasing Policies and Procedures which outlines responsible practices for purchasing,
agreements and contracts. Nicholas Community Action Partnership will expand the
policy to clearly outline ethical practices for hiring consultants and employee agreements.




Submitted By:

Dave Jarroll, President                                   October 7, 2010
Nicholas Community Action Partnership, Inc.
